OIG Investigative Reports, Minnesota Man Convicted of Student Loan Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE:May 12,  2000
CONTACT PERSON:
TIMOTHY M. MORRISONUnited States Attorney(317) 226-6333
Minnesota Man Convicted of Student Loan Fraud
Timothy M. Morrison, United States Attorney for the Southern District of Indiana, announced the sentencing today in U.S. District Court of HOUMAN J. MOVA, 27, St. Paul, Minnesota, following his plea of guilty to student loan fraud.  Chief Judge Sarah Evans Barker sentenced Mova to 6 months home confinement and 2 years probation.  The investigation resulting in this conviction was conducted by special agents of the U.S. Department of Education.
At the hearing today MOVA admitted to defrauding the U. S. Department of Education and USA Group in Fishers by fraudulently obtaining student loans in 1995 and 1996.  The loans were processed by USA in Fishers but contained forged signatures and certifications of school officials of the foreign school to which he applied.  According to Assistant United States Attorney James M. Warden, who prosecuted the case for the government, MOVA kept the $35,000 in loan funds but never attended the medical school to which he applied.  Chief Judge Barker also ordered MOVA to make full restitution to USA Group.
Printable view
Share this page
Last Modified: 03/02/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov